July 18, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Maine Did Not Always Make Correct Medicaid Claim Adjustments
                (A-01-12-00001)


Attached, for your information, is an advance copy of our final report on Medicaid claim
adjustments made by Maine. We will issue this report to the Maine Department of Health and
Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I, at
(617) 565-2689 or through email at Michael.Armstrong@oig.hhs.gov. Please refer to report
number A-01-12-00001.


Attachment
                                                               O FFICE OF A UDIT S ERVICES , R EGION I
                                                                             JFK F EDERAL B UILDING
                                                              15 N EW S UDBURY S TREET, R OOM 2425
July 20, 2012                                                                   B OSTON , MA 02203

Report Number: A-01-12-00001

Ms. Mary Mayhew
Commissioner
Department of Health and Human Services
221 State Street
State House Station 11
Augusta, ME 04333

Dear Ms. Mayhew:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Maine Did Not Always Make Correct Medicaid Claim
Adjustments. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Curtis Roy, Audit Manager, at (617) 565-9281 or through email at Curtis.Roy@oig.hhs.gov. Please
refer to report number A-01-12-00001 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Mary Mayhew


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   MAINE DID NOT ALWAYS
   MAKE CORRECT MEDICAID
    CLAIM ADJUSTMENTS




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-01-12-00001
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Maine, the Department of Health and
Human Services (State agency) administers the Medicaid program.

The Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program
(Form CMS-64) is the accounting statement that the State agency must submit each quarter
under Title XIX of the Act, in accordance with 42 CFR § 430.30(c). The form shows the
disposition of Medicaid grant funds for the quarter being reported and previous fiscal years, the
recoupment made or refunds received, and income earned on grant funds. It is also used to make
adjustments for any identified overpayment or underpayment of the Federal Medical Assistance
Percentage (FMAP). These adjustments are made on specific lines of the Form CMS-64 for
prior-period increases and decreases. Adjustments are made for a variety of reasons, including
correcting inaccurate provider billings and retroactive changes in provider payment rates.

The State agency was reimbursed $251 million ($166 million Federal share) for 1 million
Medicaid claims that it originally paid and subsequently adjusted through the Form CMS-64 for
calendar years 2005 through 2009. We limited our review to 637,057 claims totaling
$218 million ($155 million Federal share) that were originally paid and subsequently adjusted,
resulting in a payment difference.

OBJECTIVE

Our objective was to determine whether the State agency used the correct FMAP when it
processed claim adjustments reported on the Form CMS-64.

SUMMARY OF FINDING

The State agency did not always use the correct FMAP when processing claim adjustments
reported on the Form CMS-64. Of the 637,057 claims reviewed, the State agency processed
63,989 claim adjustments using the correct FMAP and 573,068 claim adjustments using an
incorrect FMAP. As a result, the State agency incorrectly claimed $9,179,777 (Federal share)
for Medicaid claim adjustments. These errors occurred because the State agency processed the
whole amount of adjusted private-provider claims as new expenditures rather than treating only
the increases as new expenditures.




                                                i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $9,179,777 to the Federal Government and

   •   ensure that it processes future adjustments using the correct FMAP.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed to work with CMS to refund
identified overpayments and to determine the proper processing and reporting of future
adjustments. The State agency noted, however, that because of the current configuration of the
claims system, there will be a reduction to any amount due to CMS.

We appreciate the State agency’s agreement to work with CMS. We are unable to comment on
any adjustments that may occur after our audit period because these adjustments were not within
the scope of our audit.

The State agency’s comments are included in their entirety as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                          Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Medicaid Program ........................................................................................1
              Quarterly Medicaid Statement of Expenditures for the
               Medical Assistance Program.....................................................................1
              Federal Medical Assistance Percentages .....................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................1
               Objective ......................................................................................................1
               Scope ............................................................................................................1
               Methodology ................................................................................................2

FINDING AND RECOMMENDATIONS .......................................................................2

          FEDERAL MEDICAID REQUIREMENTS ...........................................................3

          INCORRECTLY REPORTED CLAIM ADJUSTMENTS ....................................3

          RECOMMENDATIONS .........................................................................................4

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................4

APPENDIXES

          A: FEDERAL MEDICAL ASSISTANCE PERCENTAGES

          B: STATE AGENCY COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In Maine, the Department of Health and
Human Services (State agency) administers the Medicaid program.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program
(Form CMS-64) is the accounting statement that a State agency must submit each quarter under
Title XIX of the Act, in accordance with 42 CFR § 430.30(c). The form shows the disposition of
Medicaid grant funds for the quarter being reported and previous fiscal years, any recoupment
made or refunds received, and income earned on grant funds.

The Form CMS-64 is also used to make adjustments for any identified overpayment or
underpayment of the Federal Medical Assistance Percentage (FMAP). Adjustments are made for
a variety of reasons, including correcting inaccurate provider billings and retroactive changes in
provider payment rates.

Federal Medical Assistance Percentages

The Federal Government pays its share of a State’s Medicaid payments based on the FMAP, also
called the Federal matching rate, which varies depending on the State’s relative per capita
income. CMS made $11.2 billion ($7.47 billion Federal share) in Medicaid funding available to
the State agency from January 2005 through December 2009. For that period, the FMAP ranged
from 62.90 percent to 74.86 percent (see Appendix A).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency used the correct FMAP when it
processed claim adjustments reported on the Form CMS-64.

Scope

We reviewed Medicaid claim adjustments that were submitted and claimed by the State agency
for Federal reimbursement on the Form CMS-64. Of the $7.47 billion that the State agency
received from CMS for calendar years 2005 through 2009, $251 million ($166 million Federal
                                                1
share) was reimbursed for approximately 1 million Medicaid claims originally paid and
subsequently adjusted through the Form CMS-64. We limited our review to 637,057
subsequently adjusted claims totaling $218 million ($155 million Federal share) because the
original and adjusted payment amounts were different.

Our objective did not require an understanding or assessment of the complete internal control
structures at the State agency. Rather, we limited our review to those controls that were
significant to the objective of our audit.

We performed our fieldwork at the State agency in Augusta, Maine, from December 2011
through March 2012.

Methodology

To accomplish our audit objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   interviewed officials from CMS and the State agency;

   •   obtained from the State agency 1,009,031 claims originally paid and subsequently
       adjusted through the State agency’s Medicaid Management Information System (MMIS);

   •   reviewed a judgmental sample of remittance advices and electronic fund transfer
       documentation to confirm that the adjustments and payments shown were consistent with
       those of the MMIS data;

   •   reconciled the adjustments to the Form CMS-64; and

   •   calculated the correct Federal share for 637,057 claim adjustments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency did not always use the correct FMAP when processing claim adjustments
reported on the Form CMS-64. Of the 637,057 claims reviewed, the State agency processed
63,989 claim adjustments using the correct FMAP and 573,068 claim adjustments using an
incorrect FMAP. As a result, the State agency incorrectly claimed $9,179,777 (Federal share)
for Medicaid claim adjustments. These errors occurred because the State agency processed the
whole amount of adjusted private-provider claims as new expenditures rather than treating only
the increases as new expenditures.


                                               2
FEDERAL MEDICAID REQUIREMENTS

Section 1903(a)(1) of the Act requires that the Federal Government reimburse the State at the
FMAP rate in effect at the time the State made the expenditure.

The State Medicaid Manual (section 2500(D)(2)) provides the following instruction to States:
“When reporting expenditures for Federal reimbursement, apply the FMAP rate in effect at the
time the expenditure was recorded in your accounting system. An expenditure occurs when a
cash payment is made to a provider …. To establish the FMAP rate applicable to a given
expenditure, determine when the expenditure was made.” Section 2500.1 further instructs States
to claim “cost settlements” and “other increasing adjustments” involving private providers as
current expenditures in the quarter in which the adjustments are made. The FMAP rate in effect
when the adjustment is paid should be applied when the adjustment amount is submitted. The
FMAP rate in effect for the original payment does not change.

INCORRECTLY REPORTED CLAIM ADJUSTMENTS

The State agency did not always make adjustments to Medicaid claims in accordance with
Federal requirements. Of the 637,057 claims reviewed, the State agency processed 63,989 using
the correct FMAP. However, a portion of the Federal share for the remaining 573,068 adjusted
claims totaling $175,376,686 ($126,014,614 Federal share) was paid using the incorrect FMAP.
State agency officials informed us that the MMIS system was unable to process claim
adjustments prior to January 1, 2008.

In the example below, the State agency made an adjustment based on a new payment rate. It
made the adjustment by voiding a claim that it had processed and paid using the FMAP in effect
at the time the claim was originally processed. It then processed an entirely new claim, including
the adjustment amount, as a current expenditure that replaced the voided claim. The State
agency reported the entire amount of the new claim on Form CMS-64 at the current FMAP,
rather than treating only the adjustment amount as a current expenditure; therefore, the State
agency overstated the Federal share.

                           An Example of an Incorrect Claim Adjustment

   Adjustment Made by the State Agency
   Transaction Type          Payment Date              Paid             FMAP          Federal Share
   Original claim              7/23/2008             $1,483.93          63.31%           $939.48
   Adjusted claim              10/7/2009            ($1,483.93)         63.31%          ($939.48)
   Revised claim               10/7/2009             $1,880.90          74.86%         $1,408.04

   Office of Inspector General Recalculation
   of the Adjustment
   Transaction Type          Payment Date              Paid             FMAP          Federal Share
   Original claim              7/23/2008             $1,483.93          63.31%          $939.48
   Adjusted claim              10/7/2009              $396.97           74.86%          $297.17
                                                                                       $1,236.65
   Amount of the Incorrect Claim Adjustment: $1,408.04 – $1,236.65 = $171.39
                                                3
The State agency could have avoided the overstatement if it had processed and reported only the
adjustment amount at the current FMAP. 1 Based on our analysis of all claim adjustments
processed during the period of our audit, the State agency incorrectly claimed $9,179,777
(Federal share) for Medicaid claim adjustments reimbursed through the Form CMS-64.

These errors occurred because the State agency processed the whole amount of adjusted private-
provider claims as new expenditures rather than treating only the increases as new expenditures.
State agency officials stated that they believed the entire amount of an adjusted claim should
have been processed as a new expenditure.

RECOMMENDATIONS

We recommend that the State agency:

       •   refund $9,179,777 to the Federal Government and

       •   ensure that it processes future adjustments using the correct FMAP.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed to work with CMS to refund
identified overpayments and to determine the proper processing and reporting of future
adjustments. The State agency noted, however, that because of the current configuration of the
claims system, there will be a reduction in any amount due to CMS.

We appreciate the State agency’s agreement to work with CMS. We are unable to comment on
any adjustments that may occur after our audit period because these adjustments were not within
the scope of our audit.

The State agency’s comments are included in their entirety as Appendix B.




1
    Increasing adjustments to private providers are expenditures that are matched at the FMAP rate for the quarter in
    which the adjustment amount was paid.
                                                            4
APPENDIXES
              APPENDIX A: FEDERAL MEDICAL ASSISTANCE PERCENTAGES


Time Period                                       FMAP 1 Rate

January 2005 through September 2005                 64.89%

October 2005 through September 2006                 62.90%

October 2006 through September 2007                 63.27%

October 2007 through September 2008                 63.31%

October 2008 through March 2009                     72.40%

April 2009 through September 2009                   74.35%

October 2009 through December 2009                  74.86%




1
    Federal medical assistance percentage.
                      APPENDIX B: STATE AGENCY COMMENTS
                                                                                                 Page 1 of2
                                                                  Deparbnent of H ealth and Human Services
                                                                                      Conunissioner's Office
                                                                                              221 State Street
                                                                                    # 11 State House Station
                                                                                 Augusta, Maine 04333-0011
                                                                                          Tel: (207) 287-3707
                                                                     Fax (207) 287-3005; TIY: 1-800-606-0215



                                              June 25, 2012

Mr. Michael 1. Armstrong, Regional Inspector General for Audit Services
Office of Audit Services, Region I
John F. Kennedy Federal Building, Room 2425
Boston, MA 02203

       Re: Maine Did Not Alwl{Vs Make Correct Medicaid Claim Atijustments­

                         Report Number A-0l-12-00001, 


Dear Mr. Armstrong:

      The Department of Health and HlllTIan Services (DHHS) appreciates the
opporhmity to respond to the above mentioned draft audit report. We offer the following
conunents in relation to the reconunendations on Page 4 of this report.

        For your convenience, below we include the summary finding and list each
recommendation followed by our response. Each response includes the State's proposed
corrective action plan which we believe will bring the State into compliance with Federal
requirements.

       Finding:
       The State agency did not always use the correct FMAP when processing claim 

       adjustments reported on the Form CMS-64. Of the 637,057 claims reviewed, the 

       State agency processed 63,989 claim adjustments using the correct FMAP and 

       573,068 claim adjustments using an incorrect FMAP. As a result, the State 

       agency incorrectly claimed $9,179,777 (Federal share) for Medicaid claim 

       adjustments. These errors occurred because the State agency processed the whole 

       amount of adjusted private provider claims as new expenditures rather than 

       treating only the increases as new expenditures. 


       Recommendation:
       Refund $9,179,777 to the Federal Government.

       Response: 

       DHHS will work with the Center for Medicare and Medicaid Services, however, 

       please note due to the current configuration of the claims system that for the time 

       period beyond the audit period covered there will be a reduction in any amount 

       due to eMS. 

                                                                                          Page 2 of2

Page Two

       Recommendation:
       Ensure that it processes future adjustments using the correct FMAP

       Response:
       DHHS will work with CMS to determine the proper processing and reporting of
       future adjustments.

       We appreciate the time spent in Maine by OIG's staff reviewing Maine's claim
adjustments reported on CMS-64. We look forward to working with CMS and Molina on
possible solutions to this issue, which was exacerbated by the large swings in FMAP due
to ARRA-enhanced FMAP. Now that state FMAP's are again relatively stable, this may
again become an issue of minor significance.

                                           Sincerely,

                                           lsi

                                           Mary C. Mayhew
                                           Commissioner

MCM/kiv
